No.

 

IN THE

SUPREME COURT OF THE UNITED STATES

LEEFATINIE COLE,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS

The Petitioner, LEEFATINIE COLE, pursuant to Supreme Court Rule 39,
hereby moves this Court for leave to proceed in forma pauperis.

1. Mr. Cole was determined to be indigent pursuant to 18 U.S.C. § 8006A, by
a judge of the United States District Court for the Northern District of Georgia.
Undersigned counsel was appointed to represent Mr. Cole in the district court and on
appeal before the United States Court of Appeals for the Eleventh Circuit.

2. Mr. Cole is on supervised release and remains indigent. Through counsel,

he will file in this Court a Petition for a Writ of Certiorari and wishes to do so in forma
pauperis.

WHEREFORE, Mr. Cole asks this Court to grant his motion to allow him to
proceed in forma pauperis.
March 1, 2021

  
 
  

espéctfylly Submitted,
Wee Bronk
for

EY O’DONNELL
Younsel of Record

‘EDERAL DEFENDER PROGRAM
101 Marietta Street, NW
Suite 1500

Atlanta, Georgia 30303

(404) 688-7530
Courtney_O’Donnell@fd.org
